11
*](& t&e Sufenettte (faint o( t/ie Tiitited Stated

Patrick Kent Lindsey Jones,
Petitioner,
v.
Allen Jones,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE

Louisiana Court of Appeal, Fifth Circuit
PETITION FOR WRIT OF CERTIORARI
Patrick Kent Lindsey
Jones, pro per
5773 Woodway Drive
#236
Houston, Texas
77057
Telephone: (832) 265-1377
In proper person

filedAUG 14 2019

1

QUESTION PRESENTED
Under the 14th Amendment, Section 1, how can
a state court deny the right to appeal, by deeming a
judgment which distributes contested funds to be a
non-appealable “interlocutory” judgment that is
somehow preliminary to a separate judgment, issued
more than five years earlier?

11

PARTIES TO THE PROCEEDING
Pursuant to Rule 14.1(b), the following list
identifies all of the parties appearing here and before
the Louisiana Supreme Court and Louisiana Court of
Appeal for the Fifth Circuit.
The Petitioner here is Patrick Kent Lindsey Jones.
The Respondent here is Allen Kent Jones, the
Petitioner’s father.
Also parties to the concursus proceeding at the 24th
Judicial District Court for Jefferson Parish, but no
longer involved because their rights regarding funds
in the concursus registry were subject to previous
final judgments,
were
Quantum
Resources
Management LLC; Milagro Producing LLC; Pirate
Lake Oil Corp.; Zodiac Corporation Ltd.; Salzer and
Ramos Enterprises, Ltd.; George J. Mayronne, Jr.;
Agatha B. Mayronne Haydel; Agatha B. Mayronne;
Succession of Oswald Harry Mayronne; Phyllis
Bridgewater Mayronne; Huey J. Majoronne; Joseph K.
Hanlin II; Jennifer Elizabeth Jones; and Jacqueline
A.L. Jones.
RELATED CASES
Quantum Resources Management v. Pirate
Lake Oil Corp., 686-816, La. 24th Jud. Dist.
Ct., Judgment entered Dec. 15, 2011.
Quantum Resources Management u. Pirate
Lake Oil Corp., 12-256, La. App. 5 Cir.,
Judgment entered Nov. 13, 2012.
Quantum Resources Management v. Pirate
Lake Oil Corp., 686-816, La. 24th Jud. Dist.
Ct., Judgment entered June 18, 2018.
Quantum Resources Management v. Pirate
Lake Oil Corp., 18-C-417, La. App. 5 Cir.,

Ill

Judgment entered Aug. 15, 2018.
• Quantum Resources Management v. Pirate
Lake Oil Corp., 18-CA-589, La. App. 5 Cir.,
Judgment entered Jan. 30, 2019.
• Quantum Resources Management v. Pirate
Lake Oil Corp., 2019-C-0487, La. S. Ct.,
Judgment entered May 20, 2019.

IV

« .

TABLE OF CONTENTS
Page
Question Presented...........................

i

Parties to the Proceeding...............

n

Related Cases.....................................

11

Table of Contents..............................

IV

Table of Appendices...........................

V

Table of Authorities.........................

VI

Opinions Below...................................

1

Jurisdiction.........................................

1

Constitutional Provision Involved

1

Statement of the Case......................

2

Reasons for Granting the Petition.

6

Conclusion..........................................

10

V

TABLE OF APPENDICES
Appendix A: Decision of the Louisiana Fifth
Circuit Court of Appeal, dismissing
App. 1
appeal
Appendix B: Decision of the Louisiana Fifth
Circuit Court of Appeal, denying Respondent’s
App. 7
writ application
Appendix C: Order of the 24th Judicial District
Court for the Parish of Jefferson, State of
App. 9
Louisiana, disbursing funds
Appendix D: Ruling of the Louisiana Supreme
App. 11
Court, denying writ

VI

TABLE OF AUTHORITIES
Page
CASES:
In re Medical Review Panel Proceedings of
Glover, 17-201 (La. App. 5 Cir. 10/25/17),
229 So. 3d 655 ........................................... 9
Quantum Resources Management v. Pirate Lake
Oil Corp., 12-256 (La. App. 5 Cir.
2, 3
11/13/12), 105 So. 3d 867
Rehab. Concepts Plus, Inc. v. Wills, 42,400 (La.
App. 2 Cir. 10/10/07), 968 So. 2d 262..... 5
STATUTES AND RULES:

U.S. Const. Amend. XIV....
28 U.S.C. § 1257...............
La. C.C.P. art. 1841..........
La. C.C.P. art. 1918..........
La. C.C.P. art. 4662..........

1, 5, 7-8, 10
1
7,8
9
5

OTHER AUTHORITIES:
Webster’s New Universal Unabridged
Dictionary.................................

8

1

OPINIONS BELOW
The ruling of the Louisiana Supreme Court
denying Applicant’s application for writs from that
Court, was issued on May 20, 2019. The judgment
from the Louisiana Fifth Circuit Court of Appeal,
which dismissed Applicant’s appeal, was entered on
January 30, 2019, with an application for en banc
rehearing denied on February 21, 2019. The
Judgment of the 24th Judicial District Court,
disbursing concursus funds to the Respondent, was
issued on June 18, 2018.
JURISDICTION
The judgment of the Louisiana Supreme Court
was entered on May 20, 2019. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1257(a), because
the application of Louisiana Code of Civil Procedure
article 1841 has been applied in a way that is
repugnant to the 14th Amendment of the U.S.
Constitution by depriving the Applicant of his
property rights without due process.
CONSTITUTIONAL PROVISION INVOLVED
Section 1 of the 14th Amendment to the U.S.
Constitution is implicated by the Louisiana courts’
denial of Applicant’s due process rights: “... No State
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.”

2

STATEMENT OF THE CASE
Patrick Jones’ attempt to appeal in this concursus
“interpleader” proceeding resulted from the final
disposition of funds deposited into the registry of the
state district court in concursus interpleading by
Quantum Resources Management (“Quantum”), to
determine which of the defendants-in-concursus were
entitled to proceeds from production on disputed
property. Applicant here, Patrick Jones (“Patrick”),
appearing here in proper person, has been in dispute
with his father and Respondent here, Allen Jones
(“Allen”), regarding the validity of a usufruct Allen
claims to have over his children’s forced-heirship
ownership of property, which was formerly the
separate property of their mother, Elizabeth Jones.
In 2011, Allen filed summary judgment motions
against two of his children, Jennifer Jones and
Patrick, seeking judgment as a matter of law that
his usufruct was valid, and Jennifer Jones filed a
cross-motion for summary judgment against Allen.
“Jennifer Elizabeth Jones, prays for judgment finding
that the usufruct in favor of Allen Kent Jones does not
extend to her and her siblings' interests in Lots 1, 2, 3,
4 and 5” “There being no genuine issue of
material fact and the law being in favor of
Jennifer Elizabeth Jones.”
The district court denied Allen’s two summary
judgment motions and granted Jennifer’s cross­
motion for summary judgment. Allen then chose only
to appeal the granting of Jennifer’s cross-motion and
the denial of his summary judgment motion against
Jennifer, but did not appeal from the denial of his
summary judgment motion against Patrick. This
Louisiana Fifth Circuit Court of Appeal acknowledged

3

this only partial appeal in its judgment in that appeal:
“The judgment also denied Mr. Jones’ motion for
summary judgment against Patrick Lindsey Jones,
his son and brother of Ms. Jones. Patrick Jones is
not a party to this appeal.” Quantum Resources
Management v. Pirate Lake Oil Corp., 12-256 (La.
App. 5 Cir. 11/13/12), 105 So. 3d 867, 870 n.3.
The effect of the appeal from the summary
judgment rulings, being only as to the dispute
between Jennifer and Allen and not between Patrick
and Allen, is that Jennifer was not challenging the
facts or validity of the supposed usufruct in 1999,
but only the legal effect of the creation of the
usufruct from a timing perspective under the
Mineral Code: “Mr. [Allen] Jones filed a motion for
summary judgment, arguing that under the
provisions of the Louisiana Mineral Code, he as
usufructuary, was entitled to the portion of the
proceeds deposited into the registry of the court
attributable to his children’s naked ownership
interests in and to the subject property. Jennifer
Jones thereupon filed a cross-motion for
summary judgment, taking the contrary
position that under the pertinent Mineral Code
provisions, the naked owners, not the
usufructuary, are entitled to the mineral
proceeds in question[.]” 105 So. 3d at 869-70.
As further evidence that the 2012 Summary
Judgment is inapplicable in scope and substance to
Patrick’s new claim and current appeal, that the
2012 judgment did not involve Patrick’s challenge
to the facts underlying the creation of the supposed
usufruct in 1999, the Louisiana Court of Appeal also
stated: “There are no facts at issue in this appeal.
The issue posed by the parties to this appeal

4
concerns the interpretation of Articles 190 and
191 of the Louisiana Mineral Code.” 105 So. 3d at
871.
After Allen prevailed in his appeal against
Jennifer, he successfully moved for disbursement
from the concursus funds of that portion of the funds
attributable to his dispute with Jennifer, but did not
seek disbursement of the funds attributable to his
dispute with Patrick. Five years after the Louisiana
Fifth Circuit’s reversal of the summary judgment
rulings as to Jennifer, the funds attributable to
Patrick’s and Allen’s dispute were the sole funds
remaining to be resolved in the concursus.
Accordingly, in November 2017 Patrick moved for
disbursement of funds from the concursus to him on
the basis that Allen’s usufruct was not created by
Authentic Act as required by law—an issue that was
not at issue in the Louisiana Fifth Circuit’s 2012
judgment as to Jennifer. The district court first
granted Patrick’s motion without setting it for
hearing, then rescinded that order and heard
Patrick’s motion to disburse funds, denying it on
February 6th 2018. Thereafter, Allen moved to
disburse the remaining concursus funds to himself,
and the district court granted Allen’s motion on June
18. 2018: “IT IS ORDERED, ADJUDGED, AND
DECREED that the Clerk of Court shall disburse all
funds remaining in the registry of the Court in this
proceeding ... including any interest accrued thereon,
to Allen Kent Jones[.]” It is from this final judgment
that Patrick has taken this anneal.
Immediately after the district court granted
Patrick’s motion for suspensive appeal from the June
18, 2018 Judgment, Allen filed a writ application with

5
the Louisiana Fifth Circuit to reverse the district
court’s granting of the motion for appeal. That writ
proceeding was No. 18-C-417, and Allen argued that
no appeal could be taken from the June 18, 2018
Judgment because it was not a final, appealable
judgment. The Louisiana Fifth Circuit denied Allen’s
writ application on August 15th 2018, holding: “A
concursus contemplates a proceeding which
leads to a single judgment adjudicating all
issues between the parties. Rehab. Concepts Plus,
Inc. v. Wills, 42,400 (La. App. 2 Cir. 10/10/07), 968 So.
2d 262, 266. Generally, the rules applicable to an
ordinary proceeding apply, so far as practicable,
to a concursus proceeding. La. C.C.P. art. 4662.
Accordingly, we do not find error in the trial
court’s grant of a suspensive appeal.”
Following the lodging of the record in Patrick’s
appeal, Allen again raised the same argument
rejected in his writ application, as a motion to the
Louisiana Fifth Circuit to dismiss Patrick’s appeal.
On January 30th 2019, the Louisiana Fifth Circuit
granted Allen’s motion to dismiss the appeal, holding
that the June 18, 2018 Judgment was “interlocutory,”
and that the “final” judgment had been that Court’s
November 2012 judgment, reversing the summary
judgment motions as to Patrick’s sister Jennifer.
Patrick timely applied for rehearing and for en banc
rehearing of the Louisiana Fifth Circuit’s dismissal of
his appeal, which was denied without further
comment on February 21, 2019. Patrick then timely
applied for a writ of mandamus and, alternatively,
writ of certiorari, to the Louisiana Supreme Court,
which denied the writ application on May 20, 2019.

6

REASONS FOR GRANTING THE PETITION
The Louisiana courts’ decisions to deny
Applicant the right to appeal, for the purpose of
raising arguments regarding his entitlement to
proceeds in which he holds a property interest,
constitute a denial of Applicant’s rights to due
process under the 14th Amendment to the U.S.
Constitution.
The Louisiana Fifth Circuit’s decision to grant the
motion filed by Allen Jones—who is Applicant’s father
and Respondent, to dismiss his son Patrick Jones’
appeal, was based on a holding that the June 18, 2018
judgment to disburse the remaining funds in the
concursus to Allen was “interlocutory” to a prior
November 2012 Judgment by this Court, regarding
the disposition of concursus funds only relating to
Patrick’s sister, Jennifer Jones. The Louisiana
Supreme Court’s denial of writs to remedy this
decision
compounded
the
absurdity
and
Constitutional violation.
How is it possible that a 2012 Summary
Judgment (whereby Patrick was not a party), which
argued “Application of Mineral Code Articles as to
Open Mines”—and did not argue validity of the
Usufruct, nor dispute these new merits of
“Authentic Act” (a completely separate argument),
could prospectively be a “Final Judgment,”
adjudicating the un-related merits of this
current claim six years later—and for the
currently disputed 2018 Final Judgment of Patrick’s
claim to be Re-Labeled as “Interlocutory” to a
preceding and immaterial Summary Judgment from
2012 in Reverse Order ?

7

Answer: It is not possible, unless the Applicant’s
Constitutional right to due process is not being
protected. As if one, in contradiction to Louisiana
Code of Civil Procedure article 1841, has the objective
of misleading this Court to believe that both the 2012
Summary Judgment and Patrick’s distinct claim
regarding Authentic Act are somehow materially
related, when they’re completely separate in
context and substance—Patrick not even being a
party to the former, which argued “application of
Mineral Code as to Open Mines” AND NOT
Authentic Act, nor the merits thereof.
Again...entirely Separate Claims with judgments
irrelevant in scope to each other, are precluded from
being misconstrued as somehow “completing each
other.”
Moreover, the judgments are being coupled
in reverse order in the form of an “Interlocutory”
judgment, coming more than five years after a “Final”
Judgment. This is contradictory to Louisiana Code of
Civil Procedure article 1841, specifically in reference
to the term “preliminary” (CCP 1841: “A judgment
that does not determine the merits but only
preliminary matters in the course of the action is
an interlocutory judgment.” There’s nothing
“preliminary” about a final judgment based on a
distinct claim not heard or adjudicated until the
disposition of Allen’s and Patrick’s competing motions
to disburse funds in 2017 and 2018. These merits were
never heard or determined in 2012. These merits were
only first adjudicated by Louisiana District Court
Judge Sullivan’s June 18, 2018 Order disbursing
funds, in response to motions between Patrick and
Allen first filed in November 2017 and finally
adjudicated on June 18, 2018.

8

This denial wouldn’t be “prejudicial” of Patrick’s
rights to have his appeal heard based on new merits
previously never raised, or be a “denial” of Patrick’s
rights to civilian due process, would it? The
Constitution for the United States guarantees due
process for all citizens of the United States:
Constitution for the United States. Fourteenth
(14th) Amendment. Section 1: “No state shall make
or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty. or property, without due process of
law: nor deny to any person within its jurisdiction
the equal protection of the laws.”
Pursuant to the (14th) Amendment, with no
right to appeal the final adjudication of the
property where is Patrick’s Due Process?
As a due process and common-sensical matter, it
is not logical that a judgment disbursing the
remaining funds in a case can be “interlocutory” to
a judgment occurring almost six years prior. This
conclusion is the same under Louisiana’s Code of Civil
Procedure: “A judgment is the determination of the
rights of the parties in an action and may award any
relief to which the parties are entitled. It may be
interlocutory or final. A judgment that does not
determine the merits but only preliminary
matters in the course of the action is an
interlocutory judgment. A judgment that
determines the merits in whole or in part is a final
judgment.” La. C.C.P. art. 1841 (emphasis added).
A judgment rendered almost six years after
another judgment cannot be “preliminary” to
the first judgment. “Preliminary” means “serving as

9
an introduction; going before the main business or
major portion; prefatory; antecedent,” and its
synonyms are “introductory, preparatory, previous,
prior, precedent,” according to Webster’s New
Universal Unabridged Dictionary. The June 18,
2018 Judgment by the district court cannot, as a
matter of the calendar and the passage of time,
be “preliminary” to the November 2012
judgment by the Louisisna Court of Appeal.
Moreover, it was not until the June 18, 2018
Judgment by the district court, that all of the funds in
the concursus generally—and the funds attributable
to Patrick’s claims in the property specifically—were
disposed of—“the determination of the rishts of the
parties” under the Code of Civil Procedure.
The November 2012 Judgment of the Louisiana
Fifth Circuit cannot have been a judgment of
Patrick’s rights, as in that same judgment the
Court noted that the summary judgment as to
Patrick was not part of the appeal, and that
Patrick was not a party to the appeal. The
November 2012 Judgment also does not meet with
the form requirements of Code of Civil Procedure
article 1918. which requires that “A final judgment
shall be identified as such by appropriate
language.”
Not only does the November 2012 Judgment not
include language that it is adjudging Patrick’s rights
to the property, but specifically states that
Patrick is not a party to that judgment. The
Louisiana Fifth Circuit has recognized that to be
valid, a judgment must “properly reflect the
name of the parties against whom the judgment
was rendered,” and the November 2012

10

judgment of this Court does not satisfy this
requirement as to Patrick. In re Medical Review
Panel Proceedings of Glover, 17-201 (La. App. 5 Cir.
10/25/17), 229 So. 3d 655, 659 n.3.
The only judgment disposing of Patrick’s rights
and properly identifying Patrick as the party against
whom it is rendered is the June 18, 2018 Judgment
that Patrick seeks to appeal here. Any other
result would be unconstitutional and strip Patrick of
his right to an anneal, as the November 2012
Judgment did not identify him as a party to the
appeal or its judgment, and the Louisiana Fifth
Circuit has now held that the June 18, 2018 Judgment
is both “preliminary” (“interlocutory”) and almost six
years too late (see Constitution for the United Sates
14th amendment, Sec. 1 “deprivation of property
without due process of law").
CONCLUSION
The issue raised by the dismissal of Patrick’s
appeal is bigger than this one case and bigger than
just Louisiana law. While the impact on Patrick is
drastic, it also threatens to impose chaos on the whole
regime of when a judgment is “final” or
“interlocutory,” and on the jurisdiction of all courts to
hear appeals and ensure the protection of all litigants’
due process rights. If judgments that occur after other
judgments are deemed to be “interlocutory,” then
appeal rights will be stripped from parties
retroactively. Accordingly, the petition for a writ of
certiorari should be granted.

11
Respectfully submitted.
Patrick Kent Lindsey Jones
In propria persona
5773 Woodway Drive #236
Houston, Texas 77057
Telephone: (832) 265-1377

